U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 17, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street NE
Washington, D.C. 20543
Re: Ybaben v. United States, No. 20-6359
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 12,
2020. The government’s response is now due, after three extensions, on March 22, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including March 24, 2021, within which to file a response.
This short extension is necessary because, in light of COVID-19, this Office is endeavoring
to minimize risks to the health and safety of our personnel responsible for the filing and service of
paper copies of Court documents by reducing the number of days each week on which the filing
and service of such documents are necessary and on which those personnel must report to work in
person.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-6359
YBABEN, ANDREW REY
USA

KEVIN JOEL PAGE
ASSISTANT FEDERAL PUBLIC DEFENDER
525 GRIFFIN STREET
SUITE 629
DALLAS, TX 75202
214-767-2746
JOEL_PAGE@FD.ORG

